<html>
<title> - INTERNATIONAL EFFORTS TO COMBAT MARITIME PIRACY</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                    INTERNATIONAL EFFORTS TO COMBAT 
                            MARITIME PIRACY 

=======================================================================

                                HEARING

                               BEFORE THE

SUBCOMMITTEE ON INTERNATIONAL ORGANIZATIONS, HUMAN RIGHTS AND OVERSIGHT

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 30, 2009

                               __________

                           Serial No. 111-13

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/


                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

49-546 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


















                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER, Florida               DONALD A. MANZULLO, Illinois
ELIOT L. ENGEL, New York             EDWARD R. ROYCE, California
BILL DELAHUNT, Massachusetts         RON PAUL, Texas
GREGORY W. MEEKS, New York           JEFF FLAKE, Arizona
DIANE E. WATSON, California          MIKE PENCE, Indiana
RUSS CARNAHAN, Missouri              JOE WILSON, South Carolina
ALBIO SIRES, New Jersey              JOHN BOOZMAN, Arkansas
GERALD E. CONNOLLY, Virginia         J. GRESHAM BARRETT, South Carolina
MICHAEL E. McMAHON, New York         CONNIE MACK, Florida
JOHN S. TANNER, Tennessee            JEFF FORTENBERRY, Nebraska
GENE GREEN, Texas                    MICHAEL T. McCAUL, Texas
LYNN WOOLSEY, California             TED POE, Texas
SHEILA JACKSON LEE, Texas            BOB INGLIS, South Carolina
BARBARA LEE, California              GUS BILIRAKIS, Florida
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

              Subcommittee on International Organizations,
                       Human Rights and Oversight

                 BILL DELAHUNT, Massachusetts, Chairman
RUSS CARNAHAN, Missouri              DANA ROHRABACHER, California
KEITH ELLISON, Minnesota             RON PAUL, Texas
DONALD M. PAYNE, New Jersey          TED POE, Texas
ROBERT WEXLER, Florida
             Cliff Stammerman, Subcommittee Staff Director
          Paul Berkowitz, Republican Professional Staff Member
                      Brian Forni, Staff Associate
                      

















                              C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Stephen D. Mull, Senior Adviser to the Under 
  Secretary for Political Affairs, U.S. Department of State......     7
Rear Admiral William D. Baumgartner, Judge Advocate General and 
  Chief Counsel, United States Coast Guard.......................    16

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Bill Delahunt, a Representative in Congress from 
  the Commonwealth of Massachusetts, and Chairman, Subcommittee 
  on International Organizations, Human Rights and Oversight: 
  Prepared statement.............................................     3
The Honorable Stephen D. Mull: Prepared statement................    10
Rear Admiral William D. Baumgartner: Prepared statement..........    19

                                APPENDIX

Hearing notice...................................................    40
Hearing minutes..................................................    41


            INTERNATIONAL EFFORTS TO COMBAT MARITIME PIRACY

                              ----------                              


                        THURSDAY, APRIL 30, 2009

              House of Representatives,    
   Subcommittee on International Organizations,    
                            Human Rights and Oversight,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1:07 p.m., in 
room 2172, Rayburn House Office Building, Hon. William D. 
Delahunt (chairman of the subcommittee) presiding.
    Mr. Delahunt. The hearing will come to order.
    It is my intention that this will be the first in a number 
of hearings that the subcommittee will hold on the issue of 
international maritime piracy, given its significance to our 
national security as well as its consequences for the global 
economy.
    Earlier this month, our Nation watched as the Maersk 
Alabama was hijacked off the coast of Somalia and an American 
citizen, who is here in Washington today, by the way, Captain 
Richard Phillips--he is over on the other side, as we say--who 
happens also to be a graduate of the Massachusetts Maritime 
Academy, one of, I think, the finest maritime academies 
anywhere, happens to be in my district on Cape Cod. Well, as we 
all know, he was held hostage for a number of days in a 
lifeboat.
    And shortly after his heroic rescue, another American 
vessel, the Liberty Sun, was also attacked by Somali pirates, 
making good on the pirates' threat to target and attack 
American ships. While the Liberty Sun avoided the Maersk 
Alabama's fate, the attack is only further evidence that 
international piracy is an ongoing threat and must be addressed 
and should be addressed quickly.
    While today the focus of public attention is off the coast 
of Somalia, some 5 years ago, the hot spot, in terms of piracy, 
was in the Straits of Malacca. Five years from now, it will 
likely be elsewhere in the world. And that underscores that it 
is imperative that we work to devise, design, if you will, an 
international architecture, an infrastructure, a blueprint that 
can permanently be utilized to deal with the threat of piracy 
wherever and whenever it emerges.
    As I have been reading on this issue, I have come to learn 
that there appears to be no silver bullet, no panacea, no easy 
answer. And it is important, I believe, for us to listen to all 
of the various parties, the stakeholders, and to educate 
ourselves on the array of international issues implicated in 
maritime piracy. Piracy presents a particularly difficult task; 
because, it is not only an American problem but an 
international problem that will need a coordinated response 
from the global community.
    Now, there are multiple opinions on how we can address this 
issue. Some, like General Petraeus, have suggested we place 
armed guards on merchant vessels. Others have claimed that this 
would only increase the danger to seafarers. While 
instinctually I am inclined to agree with General Petraeus, 
what I do know is that this will be a multifaceted problem that 
will require the full energy and engagement of the United 
States Congress. And if we fail to act now, piracy will 
continue to flourish and will have a political and economic and 
humanitarian impact around the world.
    Now, this subcommittee is tasked with the duty of 
oversight, which is a responsibility that I and my friend and 
colleague and ranking member, Mr. Rohrabacher, take most 
seriously. It will fall to this subcommittee to ensure that 
appropriate actions are being taken to address this serious 
problem and that we are working in a way to protect our 
national security and, particularly, American citizens while at 
sea.
    I am pleased to have learned that the State Department has 
moved very aggressively, under the direction of Secretary 
Clinton, to confront this challenge. The United Nations and our 
superb Navy and Coast Guard forces are also playing a key role 
in rising to the challenge. So this truly is an international 
problem that requires an international solution. We do not, nor 
should we, carry the burden alone.
    Now let me just turn to my friend and colleague, the 
gentleman from California, Mr. Rohrabacher, for any statements 
he may care to make.
    Dana?
    [The prepared statement of Mr. Delahunt 
follows:]Delahunt statement

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and 
thank you for holding this hearing. It has been an issue that 
has actually been around a lot longer than most Americans 
think. I can remember reading about this 20, 30 years ago in 
various parts of the world, including the part of the world 
that we have just recently been alerted to.
    So I would like to remind the chairman that, as long as we 
have been on this committee, we have been hearing people who 
have come to us and have pointed out how U.S. development 
assistance is wasted, quite often, when it goes directly to a 
foreign government. And, quite often, the governments, 
especially in these developing countries, are corrupt or 
ineffective or incompetent. But sometimes we have learned, and 
quite often we have learned, that providing aid to these people 
and making things better in a given area requires not going 
directly to the government but, instead, directing resources 
toward the problem specifically. The more efficient use of our 
assistance quite often is going through private organizations 
or the private sector, rather than to affected governments.
    For this reason, I believe that military assistance in the 
form of training or transferring used Coast Guard ships to 
various African nations makes no sense and will prove to be 
ineffective. I believe, instead, we must provide assistance 
that will make a difference, that is done through the private 
sector in some way, that will directly attack this problem.
    For example, there are private-sector alternatives, such as 
Blackwater and other organizations, that are set up basically 
for such purposes as we are talking about. We have been using 
them most recently as guards and security details for our 
diplomats overseas, but they have the capability of actually 
going in and providing security details for ships who are 
transporting themselves through hostile waters.
    These organizations, again, this is just--they are just 
like NGOs, and they have their specific purpose in mind. And 
they could and I believe provide an effective use of our 
resources to combat a problem while creating American jobs at 
the same time. Most people in these private organizations, like 
Blackwater, have people who know the language and the culture 
in order to get the job done and have many, many years of 
experience as compared to simply training some people in a--for 
example, in this case, an African country, training people and 
expecting that 5 months of training or 3 months of training and 
some equipment supplies is going to make a large difference and 
enable them to meet a very serious challenge.
    So my guess is that we shouldn't be wasting taxpayers' 
money in Africa by sending it to corrupt governments. But, 
instead, let's see if we can find a way, as we do in 
humanitarian efforts, to send Americans or the equivalent of 
NGOs, right at the problem by hiring these folks who can do the 
job. And by hiring private organizations, we will know exactly 
where the money is being spent and exactly what is being 
accomplished in a very measurable way rather than giving money 
to governments which, quite often, you never know what happens 
once the money is transferred into their bank account.
    So, with that said, I am looking forward to being briefed 
on the nature of the problem and perhaps going over a few ideas 
for solutions, as I have just mentioned.
    Thank you, Mr. Chairman.
    Mr. Delahunt. Well, thank you, Dana. And it might come as a 
surprise to you, but I don't know if I disagree with you. This 
is remarkable.
    Mr. Rohrabacher. It is going to be a really boring hearing.
    Mr. Delahunt. I would inform our witnesses that, during the 
course of the previous term, this subcommittee conducted some 
52 hearings. This happens to be our first. Maybe we are just 
tired, Dana, at this point in time.
    But this is a serious issue. And let me be very candid: I 
am coming to this to learn and to listen to all of the 
stakeholders, as I have said. I have some concerns, 
particularly about what I perceive to be a program that is more 
attuned to recreational or commercial fishermen, catch and 
release, but I am sure that will be addressed. By ``catch and 
release,'' I mean while pirates have been apprehended, it would 
appear that in many, many cases that there is a practice of 
releasing them, if not forthwith, in a very short time frame.
    But enough said. Let me introduce our witnesses.
    You know, as I said, having served in the Coast Guard 
myself, it is a particular honor to welcome Admiral Baumgartner 
here today. I want you to know I was a radar man, third class, 
and it gives me great pleasure to look down on an admiral at 
this point in time.
    He serves as the judge advocate general and general counsel 
of the United States Coast Guard. In this capacity, he is the 
Coast Guard's senior legal advisor and is responsible for all 
aspects of the Coast Guard's legal program.
    He is a graduate of the U.S. Coast Guard Academy. Holds an 
MBA from the University of New Orleans and a law degree, magna 
cum laude, from Harvard Law School. I also understand he was an 
editor on the Law Review, a considerable achievement.
    And next I am pleased to welcome Ambassador Stephen Mull, 
senior advisor to the Under Secretary for Political Affairs of 
the U.S. State Department. Ambassador Mull has oversight 
responsibility for the Office of the Under Secretary of State 
for Arms Control and International Security Affairs and its 
related State Department bureaus.
    Among other positions, he previously served as Acting 
Assistant Secretary for Political Military Affairs from January 
2007 until August 2008 and as U.N. Ambassador to Lithuania from 
2003 until 2006. He is a career member of the Senior Foreign 
Service in the class of Minister Counselor.
    And I don't know if my colleague is aware, but our friend 
and colleague from California, Ellen Tauscher, has been 
nominated by the President to be Ambassador Mull's boss. I know 
that you will find it a great experience working with the 
Congresswoman, soon-to-be Secretary Tauscher.
    But let's proceed. And this is a very informal process that 
we have in this subcommittee. It is really, as Dana Rohrabacher 
has said, it is the committee without rules, which means that 
you can take as much time as you want, given the fact there is 
only two of you. And we will attempt to conclude this hearing 
in time for you, Ambassador Mull, to make your 2:15 p.m. 
appointment.
    Why don't we begin with Ambassador Mull.

 STATEMENT OF THE HONORABLE STEPHEN D. MULL, SENIOR ADVISER TO 
 THE UNDER SECRETARY FOR POLITICAL AFFAIRS, U.S. DEPARTMENT OF 
                             STATE

    Mr. Mull. Well, thank you very much, Mr. Chairman and Mr. 
Ranking Member, for the opportunity to come and meet with you 
and, in fact, in an informal setting, discuss this really 
important challenge.
    I think, in the interest of your time and in the interest 
of moving toward a more free-flowing exchange of ideas back and 
forth, because we are very eager to hear your ideas, I would 
ask that my formal testimony be entered into the record, and I 
will just provide a quick overview of what is in it.
    Mr. Delahunt. Without objection.
    Mr. Mull. It is a very interesting problem of piracy in 
Somalia because it features a convergence of, really, the very 
first national interest of the United States from our very 
founding, very important to Massachusetts, of ensuring freedom 
of the seas, and it converges with this very 21st-century 
phenomenon of asymmetric threats to our security interests. And 
this convergence is all through the prism of the need to keep 
energy flowing and keep humanitarian supplies flowing to one of 
the simultaneously most destitute and most strategically 
important corners of the globe.
    Our approach, within the administration, we have basically 
one strategic goal: We want to protect America's right and the 
world's right to freedom of the seas through enhanced 
international cooperation in stopping these pirate attacks and 
building a lasting maritime security regime that we think will 
serve all of our interests in the end.
    Now, we have adopted a number of tactics in pursuit of that 
goal. We have worked very closely in the United Nations to pass 
a series of U.N. Security Council Resolutions, most recently on 
December 16th, U.N. Security Council Resolution 1851, which, in 
fact, granted significant authority to the international 
community to intervene to stop pirate attacks.
    We have also, right on the heels of that, took the lead in 
creating an international contact group on the threat of piracy 
off the coast of Somalia. That has grown to include 28 states 
and six international organizations, which has met regularly 
since the beginning of the year.
    We have encouraged increased ship deployments, both through 
our own example and our own U.S. Navy and Coast Guard presence 
there in the region but also working with other states, to the 
point where we have recently had as many as 40 ships patrolling 
this area.
    We have established a maritime security protective area 
through which ships can transit under greater security 
conditions.
    A big problem, as we can talk about later, is figuring out 
what to do with the pirates once we apprehend them. And so we 
have worked to secure an agreement with Kenya that Kenya will 
gladly take the pirates that we apprehend and prosecute them. 
We also have a number of other discussions going on with other 
states in the region to do the same thing. And, of course, as 
in the case of Captain Phillips, we are going to be prosecuting 
the pirate that survived the rescue attempt.
    The Coast Guard and the Maritime Administration, as the 
admiral will mention, have done an exemplary job of working 
with the industry, because they have to play a very important 
role in their own defense against these attacks. And I think we 
have achieved quite a bit there, especially under the Coast 
Guard's leadership.
    We also can't lose sight of the fact that piracy is really 
a symptom of a much broader problem in Somalia that is going to 
take a lot of international attention and resources to fix. And 
so we have enhanced our activism on that basket of issues, as 
well.
    I think the combination of these tactics has produced some 
success already. Just since January 1st, all the various ships 
participating in this effort have succeeded in 15 interdictions 
of pirate vessels. This is in contrast to only eight in all of 
2008. So already we have just about doubled--we are not even 
halfway through the year yet, and we have doubled successful 
interdictions. And we have apprehended a number of pirates; 52 
of them are now awaiting trial in Kenya.
    But in spite of the successes, there are a lot of 
challenges. This is a wide swath of sea, 1.5 million square 
nautical miles, depending on where you draw the boundaries. And 
so, no amount of ships is ever going to prevent every attack of 
piracy.
    We also, as you alluded to, Mr. Chairman, have problems 
with all of the countries--there is a broad consensus in 
participating in this common effort to deter pirate attacks, 
but each country has their own set and their own understanding 
of what their national legal authorities are. And so, we feel 
very comfortable, as Americans, apprehending pirates on the 
high seas and bringing them to trial; other countries do not. 
And so we are working to try and fill those gaps to make sure 
that catch and release won't happen in the future.
    Since the attack on the Alabama, Secretary Clinton and 
President Obama have asked that we work much harder in a number 
of directions. And so what we are in the process of looking 
forward to now in the next couple of weeks is we are going to 
convene an emergency session of the contact group that I 
mentioned earlier, and we will meet in New York in a few weeks' 
time.
    And, at that meeting, we are going to press contributors 
for even more forces in the region, to the extent that they can 
contribute. We are going to identify those gaps that I talked 
about to eliminate catch and release so that when pirates are 
caught they are delivered swiftly to justice. We are going to 
press very hard that victims have a responsibility in pursuing 
prosecutions, that if a country's vessel is attacked, we 
believe that that flag state of that vessel has a 
responsibility to pursue justice against those pirates so we 
are not funneling all of the pirates to places like Kenya; in 
other words, share the responsibility a little bit more 
broadly.
    We are also exploring very preliminarily with our 
colleagues in the Treasury Department what we might be able to 
do to track and freeze assets of pirates. This, of course, is 
very difficult because asset flows to pirates are typically 
contained in suitcases stuffed with $100 bills or euros flung 
onto the decks of ships from helicopters as a part of ransom 
payments. But, nevertheless, we believe that there are some 
directions that we can work. Probably not appropriate to 
discuss in this setting, but we are looking at it very 
carefully.
    And then, finally, you may ask, despite all these efforts, 
why are the number of attacks going up? Well, the point is 
people have been paying ransom and enabling pirates to buy more 
sophisticated weapons to organize themselves better. We are 
redoubling our efforts, with particularly our European allies, 
to say there should be no concessions to pirates. There is 
significant opposition to this because some believe it is an 
acceptable business cost, others believe you don't want to put 
human lives in jeopardy. And, in fact, pirates have not really 
been taking lives up until now. So it is something that we are 
going to keep discussing. It is a difficult problem.
    It is difficult and complex, as we talked about, Mr. 
Chairman, at the beginning, but the truth is, we have something 
really strong going for us, and that is a strong international 
consensus that this is something that threatens all of us. And 
we really hope that we can build on that consensus to overcome 
some of these practical difficulties and make a real impact in 
shutting down this threat not only to us and our citizens but, 
really, to the world shipping community, as well as the states 
in the region.
    So I will stop there, and look very much forward to hearing 
your ideas and answering your questions.
    [The prepared statement of Mr. Mull 
follows:]Mull 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Delahunt. Thank you, Ambassador.
    Admiral Baumgartner?

    STATEMENT OF REAR ADMIRAL WILLIAM D. BAUMGARTNER, JUDGE 
 ADVOCATE GENERAL AND CHIEF COUNSEL, UNITED STATES COAST GUARD

    Admiral Baumgartner. Mr. Chairman and Representative 
Rohrabacher, before I begin, I want to assure the chairman that 
any good admiral understands and knows in his soul that the 
third-class petty officers do the real work of the Coast Guard, 
not the admirals. So you have my admiration for your service in 
doing the actual, real work of the Coast Guard.
    I do appreciate the opportunity to appear before the 
subcommittee to discuss piracy and the Coast Guard's role in 
addressing this threat to freedom of navigation, the safety of 
international shipping, and, I think most importantly, the 
lives of the seafarers who are so crucial to our international 
economy.
    And I do ask that my written statement be included in the 
record.
    Mr. Delahunt. Without objection.
    And, Admiral, I just want to recognize the presence of our 
colleague from New Jersey, who happens to chair the Africa 
Subcommittee--not happens to, but has really made a significant 
contribution over time to Congress's understanding of issues 
implicated in the continent of Africa. And that is Mr. Don 
Payne.
    Admiral Baumgartner. Good afternoon, sir.
    Mr. Delahunt. Please proceed.
    Admiral Baumgartner. Piracy is one of the oldest universal 
crimes. And, under international law, every nation has the 
legal authority to bring pirates to justice. This authority, 
however, does not guarantee success in coordinated 
international action, as the Ambassador mentioned is essential.
    The national strategy for countering piracy off the Horn of 
Africa acknowledges that lasting solutions require significant 
improvements in the governance, rule of law--that is critical--
security and economic development of Somalia. However, there 
are a lot of steps that can be taken in the near term, and the 
national strategy lays out these steps in three basic lines of 
action.
    The first entails preventative and precautionary measures 
to render piracy less attractive; most importantly, measures to 
make commercial vessels more difficult targets for pirates. In 
this regard, the United States and the Coast Guard have worked 
closely with our Government and industry partners via the 
International Maritime Organization, ad hoc consultations, the 
international Contact Group on Piracy Off the Coast of Somalia. 
We are doing this to produce practical and effective solutions.
    Nothing illustrates the inextricable link between safety 
and security like the issue of piracy. And I would stress that 
this is critically important because, once the pirates are 
onboard the vessel, as we all know, the dynamic on the water 
changes considerably. And the dangers to the crew of the vessel 
and the vessel itself go up dramatically once the pirates are 
on board and in control.
    The second line of action focuses on operations to 
interrupt and terminate piracy. Toward this end, as we all 
know, Central Command has established Combined Task Force 151 
to deter, disrupt and suppress piracy in this region. For 
several months, Coast Guard law enforcement detachments have 
been operating under this combined task force, augmenting and 
training U.S. naval vessel boarding search and seizure teams 
and various maritime interdiction operations mission areas. 
Currently, the Coast Guard 378-foot high-endurance cutter 
Boutwell is operating under Combined Task Force 151 and will be 
conducting counterpiracy operations in this area.
    The third line of action focuses on effective prosecution 
of pirates. Specific measures include the development of 
regional anti-piracy agreements; promotion of existing 
international agreements, such as the Convention for the 
Suppression of Unlawful Acts Against the Safety of Maritime 
Navigation--that is a mouthful, but we call it SUA for short; 
and also the enhancement of regional partner capabilities.
    These efforts are well under way. In January, as the 
Ambassador mentioned, the United States signed an MOU with 
Kenya, onto which Kenya will accept custody of suspects and 
seized property for either trial in their country or transfer 
to another. Kenya has already agreed to prosecute several 
pirates captured by joint U.S. Coast Guard-Navy teams. Under 
similar arrangements, the United Kingdom, European Union 
countries have also turned pirates over to Kenya to be tried in 
their courts. The SUA convention I mentioned before is a 
valuable tool in these efforts.
    Earlier this year, at a meeting convened by the 
International Maritime Organization in Djibouti, 21 regional 
nations adopted an agreement for cooperation in the 
interdiction, investigation and prosecution of pirates, as well 
as the establishment of information and training centers. 
Although not eligible to be a party to this instrument, the 
U.S. delegation, led by the Coast Guard, played an important 
supporting role in the effort. We sincerely hope that there 
will be other nations that step up, as Kenya has done, and 
provide additional support in the region.
    As the Nation's primary maritime safety and law enforcement 
agency and a branch of the Armed Forces, the Coast Guard has a 
unique and significant role in responding to piracy. The Coast 
Guard leads U.S. anti-piracy efforts at the International 
Maritime Organization. The service establishes and enforces 
requirements for vessel security plans under the Maritime 
Transportation Security Act and the International Ship and Port 
Facility Code.
    In the recent incidents with the Maersk Alabama and the 
Liberty Sun, the plans that those vessels and those companies 
developed pursuant to the Maritime Transportation Security Act 
were critical in their successful responses to those pirate 
attacks. And one of the things that has been highlighted many 
times and I just would want to stress again is that those 
masters of those vessels practiced those plans over and over 
again, drilled their crews. And I am most familiar with the 
Maersk Alabama, but the crew executed the plan exactly as they 
were supposed to, and that was absolutely critical to the 
positive result in that case.
    Both the International Maritime Organization and the Coast 
Guard are currently revising our directives on piracy-specific 
security measures. Just Monday, we presented a proposal for 
revised measures to a group of industry leaders, and we are 
awaiting their feedback on those specific new security 
measures.
    In addition, we engage in international training to enhance 
the capacity of other nations to take action against pirates, 
both in their waters and in their courts. Significantly, the 
Coast Guard has just published a revised Model Maritime Service 
Code that developing nations may use as a template to establish 
the laws and institutions necessary to counter piracy.
    This is particularly important, as the Ambassador noted. 
The international law regime is very robust in the area of 
piracy; however, where it falls down or may fall down on 
occasion is whether individual nations have adopted the 
domestic law that they need to do their role in suppressing 
piracy. The Model Maritime Service Code, one of its goals is to 
give a template to those countries so that they can establish 
the right domestic laws, with the right jurisdiction, the right 
agencies and so forth, to take action on piracy and other 
similar types of crimes at sea.
    As I conclude, I want to emphasize that piracy is a 
multifaceted threat. The response requires a broad array of 
legal authorities, operational capabilities, skills and 
competencies, as well as the participation of numerous U.S. 
Government, international, and commercial entities. The Coast 
Guard, as an armed force, our principal maritime law 
enforcement agency and our principal regulatory agency for 
maritime safety and security, has a unique role to play and 
remains committed to this effort.
    Thank you for the opportunity to address the committee, and 
I look forward to questions and dialogue.
    [The prepared statement of Admiral Baumgartner 
follows:]Baumgartner 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Delahunt. Well, thank you very much, Admiral.
    Like I say, we are very informal here, so this is more of a 
conversation. And if a question is posed to one and the other 
witness has a desire to interrupt, please feel free to do that.
    You indicate that the problem is with the domestic legal 
authorities, in terms of the prosecution of those that are 
apprehended. It is my understanding that, even absent 
conventions--the SUA, the Geneva Convention--that it is 
customary international law that piracy, in and of itself, 
confers jurisdiction in the right to prosecute individual 
nation-states. But I guess what you are telling me is that 
other nations would require some sort of domestic legal 
authority and could not proceed just simply under customary 
international law to prosecute those that were apprehended.
    Is that a correct statement? Or am I misstating it? Am I 
misunderstanding?
    Admiral Baumgartner. No, I think that that is pretty 
accurate.
    Here in the United States, despite the fact that we would 
have authority under the 1958 Geneva Convention on the High 
Seas, for example, or the SUA convention, we would have 
international authority to take action here. If we did not have 
the actual sections in title 18 of the U.S. Code, we would not 
necessarily have a crime to prosecute in our court.
    There are other specific procedural issues that come up 
from time to time with different nations. If the nation is not 
prepared to prosecute such, should I say, far-flung or crimes 
that are committed away from their shores, say, on the high 
seas or other places, they will find that there are sometimes 
procedural impediments in their own criminal processes where 
they simply haven't thought ahead or aren't prepared to deal 
with a delay between the arrest of an individual and the time 
they are brought in front of a court, and many other particular 
issues like that.
    In the United States, I can speak to some things in 
particular. We do have these regimes in place, and for that I 
think we can thank the narcotics business. We have the Maritime 
Drug Law Enforcement Act, which has forward-leaning and 
forward-thinking jurisdictional provisions and does accommodate 
those kinds of difficult and unusual scenarios. That is the 
type of thing that is lacking from time to time in different 
countries' domestic laws.
    Mr. Delahunt. Ambassador?
    Mr. Mull. And I would add, in addition to agreeing with 
everything the Admiral said, there are often very discrete 
policy or political questions involved, as well. Some national 
prosecutors will decide, ``Well, yes, we recognize that an 
attack on the high seas is something that we could prosecute, 
but our nationals weren't involved, none of our flagged ships 
were attacked in this. Even though we might have detained or 
somehow apprehended these pirates, we are not going to 
prosecute them because we don't have the resources to do it.''
    And then there are other political questions. There is an 
anecdote I like to tell about one of our own Navy ships that 
picked up a Somali pirate. He was kept onboard in the brig, and 
he started knocking and wanting to talk to somebody. And one of 
the officers of the ship went down and said, ``Yes?'' And the 
detainee said, ``You know, this brig is much nicer than where I 
live in Somalia. May my family please come and stay with me 
here?''
    It is partly funny, but it also illustrates that, for many 
people, if you arrest them and then take them into custody, 
there may be national laws that prevent their return if they 
are found not guilty. They will say that they face persecution 
or terrible living conditions in Somalia, they would like 
asylum. Or they will just remain there in the country and then 
become a problem for that particular nation.
    So all of these combinations of things really make many 
countries reluctant to play an activist role. But we think 
there is a responsibility that we have commonly to ensure 
freedom of the seas. And so we are going to keep working with 
our partners to show them the templates that the Admiral 
mentioned and to keep policy pressure on them to change their 
approach.
    Mr. Delahunt. It would appear, you indicated that there is 
a--maybe I am, again, not describing it accurately, but a model 
legislation that is used in an effort to have other nation-
states adopt, so that the proper domestic legal authority 
exists. And I didn't hear, has that been produced by the Coast 
Guard, or is it a product of the Office of Legal Counsel of the 
State Department, or is it--where was it generated?
    I think you referenced it, Admiral.
    Admiral Baumgartner. Yes, sir. There may be many things, 
many products that help along those lines. What I was referring 
to was a product the Coast Guard produces that is called the 
Model Maritime Service Code. And it is designed to run the full 
gamut of what a country would need to set up their marine 
safety regime, their fisheries enforcement regime, the maritime 
law enforcement regime, maritime security, would extend to 
piracy, counterdrug operations. It would also have a template 
on what type of agency they might set up to do the same kind of 
thing, as well.
    So it is actually a fairly robust document, but it does 
have the specific things in there that a country----
    Mr. Delahunt. But it does not provide, if you will, a model 
law that could be emulated or replicated in other nation-
states?
    Admiral Baumgartner. Oh, yes, sir, it does.
    Mr. Delahunt. Oh, it does?
    Admiral Baumgartner. Yes, sir. Depending upon the legal 
structure in a particular country, they could take sections of 
it simply verbatim and enact it. It is designed that way.
    Mr. Delahunt. You know what I found interesting is that--we 
are talking some Western democracies. I think I just read 
recently the Netherlands apprehended and then, in a relatively 
short period of time, released a number of these pirates. And 
it became an issue of, you know, public debate, political 
debate in the Netherlands.
    And it is also my understanding that Russia has 
apprehended, again, a number of pirates, and a decision has not 
been made as to how their cases should be disposed of. I wonder 
if they have reached a decision.
    You have that on the one hand, and then you have the French 
taking a much more aggressive approach than it would appear 
that the United States and the United Kingdom are. Am I 
describing that accurately?
    And am I correct in stating that there is a lot of work to 
do to create a consistent legal regime, in terms of how these 
cases should be investigated and prosecuted and some sort of 
understanding as to an appropriate sanction? Which, from my 
perspective, should be very severe, simply to send a message 
that there is a significant consequence for this kind of 
behavior.
    Mr. Mull. When we began our diplomacy in January to create 
this contact group of countries that were going to coordinate 
their efforts, we successfully persuaded our European partners 
that this was a major flaw in the world's response to piracy. 
And we persuaded them to agree to establish a legal working 
group that met in Copenhagen in March to start examining these 
discrepancies. And then we are going to be meeting again next 
week, again, in the same group, to see how far we have come and 
to identify these.
    Mr. Delahunt. If I may, I think I read where there are four 
working groups.
    Mr. Mull. Yes, that is right.
    Mr. Delahunt. And I take it, this is one of them?
    Mr. Mull. It is working group number two.
    Mr. Delahunt. And who is the lead in that working group, 
the Danes?
    Mr. Mull. The Danes have been the convener of this, but 
they are rotating. You know, every time it meets, there is a 
different host who organizes the meeting and pulls it together. 
And State Department--the U.S. Government is represented at 
these deliberations.
    Mr. Delahunt. And who is representing the United States?
    Mr. Mull. We have been sending an assistant legal advisor 
of the State Department, Sue Biniaz, to participate in those, 
with interagency participation.
    Mr. Delahunt. Right.
    I take it the Coast Guard is represented there, as well?
    Admiral Baumgartner. We have been heavily involved in the 
run-up in the preparations and so forth, so, yes.
    Mr. Delahunt. Are we making progress, Ambassador, I guess 
is the question?
    Mr. Mull. Well, as you might imagine, pulling together 28 
countries and trying to get them to be more like us is always a 
challenge. It is slow progress, but I think there is progress 
in terms of identifying the gaps.
    I will tell you what helps a lot is the high profile that 
this issue has gotten in the press. We have noticed, just since 
the Alabama case, in the meetings we have had, particularly 
with our European partners, there is much more readiness to 
talk with us about the dangers from ransom, about the dangers 
of catch and release.
    And just after the incident with the Dutch that you 
described, sir, the Dutch foreign minister met with Secretary 
Clinton and told the press that the Netherlands is going to be 
doing better on questions like this in the future.
    So I am optimistic.
    Mr. Delahunt. Do you agree or disagree with this statement, 
that if we don't solve this particular problem, this might be 
the most significant problem in terms of dealing--and I am not 
saying that--you know, even if we do our best, in terms of best 
practices, in terms of intervention, in terms of dealing with 
Somalia as a failed state, all of those issues, if we don't 
have a coherent legal regime that imposes substantial sanctions 
to serve as deterrents, we are going to continue to have 
problems. I mean, I would presume that, you know, a pirate who 
is released goes back to Somalia and is in the next skiff out.
    And I think it is important--let me ask you this question: 
(A) do you agree with that? Both of you. And how can we, 
Congress, play a role?
    I was musing that, you know, clearly, particularly this 
committee but other committees, too, often engage in 
interparliamentary exchanges. I know that Congressman 
Rohrabacher and I have been in Russia, we travel together, we 
have been in Germany, simply to raise this issue with our 
counterparts in the Duma or in the German Bundestag.
    Does that aid or does that reinforce what you are 
attempting to do? And let me hear your responses.
    Mr. Mull. Well, Mr. Chairman, I completely agree that this 
is an absolutely vital key to solving the problem. So I think 
you have perceived it exactly right.
    And in terms of what the Congress can do, I think through 
your international engagement on the trips that you make 
overseas and the interparliamentary fora that you participate 
in, I think you could really help a lot by publicizing and 
drawing your counterparts' attention to the need to have a more 
harmonious legal approach.
    Because this isn't the responsibility of the United States 
or of Russia or the Netherlands; it is really all of our 
responsibility. And we need a common set of tools and 
authorities and capabilities if we are going to succeed.
    Mr. Delahunt. I would note that this particular committee 
has jurisdiction over multilateral organizations, including the 
United Nations, which obviously implicate the IMO. And I know 
Mr. Rohrabacher and I--and I am speaking for him here--would be 
more than willing to observe, participate and support the 
executive's efforts at the U.N., with the IMO or any other 
organization.
    With that, let me yield to my friend, Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    How many people have lost their lives? Have we had these 
pirates killing some of the people that they have taken over, 
some of these ships, in the last year or so?
    Mr. Mull. There have been a couple of sailors who have 
died, not because they were executed by the pirates, but 
because they were ill. And so, there have been no hostages, at 
least in the last 2 years, that have lost their lives because 
they were executed by pirates.
    Mr. Rohrabacher. Okay. So there has been ransom paid; and 
thus, the ransom was paid and the hostages weren't killed. Has 
there been anyone who hasn't paid the ransom and having the 
people released?
    Mr. Mull. Well, certainly, we didn't pay ransom for the 
Maersk Alabama. And I don't think we ever would.
    Beyond that, Bill, do you know?
    Admiral Baumgartner. Obviously, I mean, the French have 
launched some operations, as well, to take vessels but----
    Mr. Rohrabacher. But, I mean, not been released by us, by 
an act. But has there been a situation where the pirates have 
captured someone, asked for a ransom, they weren't given the 
ransom, but the pirates just gave up and let them go?
    Admiral Baumgartner. There is no incident that I am aware 
of at all. And some of the vessels have been held there quite 
some time. I am just looking here at a list. There are some 
that were captured in August and are still being held.
    I think that, from an economic standpoint, the vessel 
owners, looking at the hostages there, paying the ransom is an 
expedient way to get their vessel back and to get their crew 
members released, get the cargo back on its way to its 
destination.
    Mr. Rohrabacher. Well, I am sure that they are very 
concerned, the pirates that were holding these hostages, with 
the legal working group in Copenhagen. I am sure they are just 
sitting on the edge of their chair, waiting for the report, 
before they make up their mind if they are going to take 
hostages.
    Is there any relationship between these terrorists--between 
terrorist organizations, especially Islamic terrorist 
organizations, and these Somali pirates?
    Mr. Mull. There has been no indication. It is a question 
that we examine very critically every single day. And, thus 
far, we have not seen any evidence of a link. The Al-Shabaab 
group in Somalia, in fact, has made pronouncements against the 
pirates.
    Since the incident with the Maersk Alabama, there were 
threats from some of the pirates who said that they would now 
ensure retaliation, violent retaliation, against American 
interests. Whether or not terrorist groups could perceive of 
that as an opportunity to get themselves involved in piracy is 
a very real concern that we continue to watch, but we haven't 
seen that link yet.
    Mr. Rohrabacher. So is your testimony that the Al-Shabaab 
group is not--you do not have evidence of them being engaged 
with the Somali pirates?
    Mr. Mull. No.
    Mr. Rohrabacher. Okay.
    Mr. Delahunt. Would the gentleman yield for a minute?
    Mr. Rohrabacher. Certainly.
    Mr. Delahunt. I think I read somewhere that there was 
criticism from that particular group, or possibly another, that 
condemned the piracy attacks as being un-Islamic. Is that 
correct?
    Mr. Mull. Yes, sir.
    Mr. Delahunt. I yield back.
    Mr. Rohrabacher. There is a quote from Sheikh Hassan 
Abdullah Hersi al-Turki, the leader of the Al-Shabaab link to--
whatever they call this group. It is a group--I cannot 
pronounce it, but it has been designated by the State 
Department as a terrorist organization. And this sheikh says, 
``I can say the pirates are part of the mujahideen''--religious 
fighters--``because they are in a war with Christians and 
Christian countries who want to misuse the Somali coast.''
    Is there anything else that--it sounds like there is a link 
there.
    Mr. Mull. No, we have heard sentiments like that expressed, 
but we have not seen any evidence of formal funding or 
operational planning or encouragement in targeting as of yet. 
But it is because of statements like that that we watch this 
very closely.
    Mr. Rohrabacher. Okay. Kenya, once it takes these 
prisoners, what is the punishment if found guilty?
    Mr. Mull. Well, none of these trials--there have been 
preliminary hearings. None of them, of the 52 suspects now 
there, have come to conclusion yet. So I don't know what their 
sentences, if convicted, will be.
    I am sorry, there were some convictions in 2006, for which 
7-year sentences were given.
    Mr. Rohrabacher. Seven-year sentences. So, I don't know 
what the situation is with time off for good behavior or 
anything in that country. I have no idea. Maybe not. Who knows? 
But 7 years for piracy, which is the equivalent of kidnapping, 
I would think it would be very similar. What is the punishment 
in the United States for someone who would be convicted of a 
similar crime?
    Admiral Baumgartner. Piracy in the United States could 
include life imprisonment.
    Mr. Rohrabacher. Right. Okay. It would seem to me that that 
would have more of an impact than 7 years in prison. Of course, 
7 years in a Kenyan prison may be the equivalent of a lifetime 
in the United States.
    Let me just get back to one point about--rather than 
looking at the pirates as, sort of, independent players. The 
Puntland government, is it profiting from these pirates? Or the 
Ethiopian Government? Because I understand that that is where 
they are operating out of, under that auspices.
    Mr. Mull. Yes, our information indicates that the vast 
majority of pirate attacks are launched from organizations that 
are located within the Puntland area.
    The governor of Puntland has, just in the past month, 
expressed his eagerness for some of the security assistance you 
were mentioning earlier, Mr. Rohrabacher, in your opening 
statement, volunteering to take on a more activist role to 
undertake law enforcement in the area.
    But, at the same time, I think it is indisputable that the 
relatively vast sums that are now flowing in and out of that 
area as a result of ransom payments does benefit not just the 
pirates but also the people that live there.
    Mr. Rohrabacher. Would you write off the possibility that 
the head of the Puntland government and maybe some high 
officials there are actually confederates, meaning they are 
just sort of letting this happen and benefiting from it?
    Mr. Mull. In this open session, I could neither rule it in 
or out.
    Mr. Rohrabacher. All right, I get you. Okay. So let's find 
out, how did the Puntland government become the Puntland 
government? Was this based on a free election, or were these 
the people who were put into power by the Ethiopian 
intervention?
    Mr. Mull. I am not, unfortunately, an expert on internal 
Somali politics. But I understand that this leadership emerged 
from a pre-existing clan structure that the leadership has 
chosen through clan counsels who live in that autonomous region 
of the country.
    Mr. Rohrabacher. Right. Who are allied with either certain 
Somali interests or are allied with certain Ethiopian 
interests.
    It is my understanding that the current government was 
actually allied with the Ethiopian efforts there. And has there 
been any indication of the Somali Government in exile, which is 
now in Eritrea, which has been cataloged by us as a radical 
Islamic group--you say we don't have any evidence of Islamic 
extremism being part of this. But does that mean that the 
Somali Government in exile has not been tied to this?
    Mr. Mull. Are you referring to the Transitional Federal 
Government or the----
    Mr. Rohrabacher. Yes, the Somali Government in Eritrea, 
that is in exile in Eritrea.
    Mr. Mull. I think that is another organization. I will have 
to check into that further, sir. I am not familiar with that 
particular organization. Because the Transitional Federal 
Government, the TFG, is now set up again in Mogadishu. And I 
will have to check into that and get back to you.
    Mr. Rohrabacher. Yeah, I guess what I am getting to is 
that, perhaps, the United States sided with the government in 
Ethiopia after the current--if you want to call it the 
Government of Ethiopia. Those people who lost the elections in 
Ethiopia were embraced by our own Government. And the next 
thing we know we are carrying our water by invading Somalia. 
And the next thing we know is the area in which a government 
was placed in power by that government, Ethiopian occupation, 
ends up overseeing an area in which piracy is being conducted 
on international vessels.
    It seems to me that, if you look back far enough, that 
really calls into question our relationship with Ethiopia, as 
well as what is going on in Somalia. And that is just a 
thought.
    Now, back to my one point, and then I will yield back my 
time, and that is the possible use of--you say there have been 
40 vessels out there from various countries in order to thwart 
this piracy. Now, it seems to me that what we are talking about 
is a very easy--I mean, I know whatever challenge it is we have 
to have European lawyers working in Copenhagen and the working 
group. I understand how important that is to defeating this 
enemy.
    But in terms of the actual military confrontation that is 
going on, or I should say armed confrontation that is going on, 
couldn't these people be deterred by just having private 
security guards on the ships or having someone hired by the 
shipping companies to keep a protective cover in that part of 
the world?
    Admiral Baumgartner. Well, sir, you are right that security 
on the vessels does have an impact. However, it is a very 
complex thing as to how you put security on there, armed or 
unarmed security.
    Armed security is something that--we are spending a lot of 
time right now in our Government reviewing all of the ins and 
outs of armed security teams onboard vessels. It raises a whole 
host of questions. It is being done by different companies 
right now, and in some of them it is being done successfully to 
deter attacks.
    It does require an awful lot of coordination, a lot of 
forethought, a lot of training. Having normal merchant seamen 
pick up weapons and then expect them to fight off pirates with 
rocket-propelled grenades and AK-47s is not necessarily going 
to work very well. On the other hand, well-trained independent 
security teams that have practiced together, understand fields 
of fire, understand the basic rules for self-defense, when they 
can fire and when they can't fire at pirates that are 
approaching them--all of those things could definitely help.
    There are many other problems, though. The cargo on many 
vessels is totally incompatible with having a firefight. 
Obviously, petroleum products, other hazardous chemicals, and 
so forth--a very difficult thing and could be very dangerous. 
There are other nations that have very different views on this 
issue, and there are many nations and many interests that 
think<greek-l>s deg. that this raises the danger to the crews 
and to the vessel and will take this whole thing to a different 
level.
    Mr. Rohrabacher. Those are the European allies who want to 
send the lawyers in.
    Admiral Baumgartner. Well, there are many of them, sir. And 
there are also insurance interests that have a tremendous 
influence in what companies do in this area.
    Mr. Rohrabacher. Yeah, I understand the insurance interest 
and our European friends that think that we can hug people and 
be nice with them and then they won't hurt us. If we can just 
set everything down legally, they will disappear.
    Well, that is not going to happen. There are people in this 
world like those pirates. And I will tell you, pirates 
throughout our history have been the scum of the sea. And they 
are willing to--and historically have been willing to murder 
and kill. And these pirates, I believe, have the same 
willingness to do that.
    And I think it is up to us to have courage--if we can't 
face down this type of threat and take care of it, God help us 
for anything much more substantial. I would suggest that we 
could even do that through the private sector. I would 
recommend that we actually have a policy of encouraging ships 
that are going in this area to hire private security 
protection. And I think that it would disappear, the problem 
would disappear.
    Admiral Baumgartner. Yes, sir. As I mentioned, this is 
actively being discussed and engaged. And what exact position 
and many of the things that you just said are right on the top 
of our plate and actively being worked with all of the 
government agencies and industry and all of those interests 
involved right now, particularly with U.S. vessels.
    Mr. Rohrabacher. Thank you.
    Mr. Delahunt. Let me go now to the gentleman from New 
Jersey, Mr. Payne.
    But before I do, in the event that any of our European 
friends, either in the audience or observing, you know, through 
C-SPAN or whatever, I think it should be noted that the French, 
for example, who I know are admired by my friend from 
California, are probably the most aggressive in terms of 
militarily and by force dealing with this issue.
    And, in fact, maybe this is inaccurate, but I understand 
the French have actually offered military escorts to the 
various vessels transiting through the Red Sea and the Gulf of 
Aden and the Cape of Good Hope, at a price obviously.
    But is that a misstatement, or are the French actually 
willing to provide military escorts on private ships for a 
price? Have either one of you heard of that?
    Mr. Mull. That the French Government would pay for a 
private security firm to----
    Mr. Delahunt. No. In other words, the French Government 
would----
    Mr. Mull. Would ride on the ships, the military.
    Mr. Delahunt [continuing]. Would place on private vessels 
French military, presumably special operation teams, that would 
be paid for by private vessels.
    Admiral Baumgartner. I am not personally familiar with 
this, but I have been informed that there has been some 
discussion from the French and perhaps the Belgians on that 
issue. But I don't really have any more.
    Mr. Delahunt. If you could follow up, I would be 
interested, given, you know.
    Mr. Payne?
    Mr. Payne. Thank you, Mr. Chairman. And I commend you for 
having this hearing. It is a pretty complicated issue that they 
are dealing with.
    You know, for my colleague from California, the old pirates 
who were, you know, the scum of the earth and all that stuff, 
they don't stay on the water like the old pirates used to do. 
You know, pirates used to just live on ships and roam around 
the world. These pirates don't live on boats. They try to, I 
guess, get the booty and go back to land. So there is a 
difference in the lifestyle. You know, they are not the way it 
used to be.
    And, actually, from what I have been able to understand, it 
is really some kind of cartels, criminal cartels, that are--
believe me, the last thing on the mind of these hijackers is 
some ideology of some Islamic, you know--it has absolutely 
nothing to do with Islamists and anti-West and al-Qaeda-linked 
and all that.
    As a matter of fact, as has been indicated, there is 
absolutely no one in Somalia, other than the criminal cartels 
that are doing it, that appreciate that it is happening. The 
current government of Sheikh Sharif Ahmed, the government up in 
Puntland and in Somaliland and in Mogadishu, Sheikh Sharif 
Ahmed--none of them want it. The only people, like I said, who 
are benefiting is this group of criminals who have found a way 
to make some money. They are not giving to the Red Cross. I 
mean, you know, it is not assisting Somalis in general. It is 
making some criminals, maybe some of the old warlords, you 
know, wealthy.
    But I guess time is running out and a vote is coming on. 
But I did have an opportunity to speak with a broad group of 
people in Mogadishu, a day or two after the ship was released. 
And, actually, I mentioned very clearly at a press conference 
with the Prime Minister that I thought that the actions of 
President Obama and the Navy SEALS was appropriate and that 
criminality cannot be tolerated and there has to be assertive 
action to end it. If there is no deterrent to ending this, it 
will just continue. And there was absolutely no dissent from 
about 25 media people.
    So the government, in particular, doesn't see piracy--as a 
matter of fact, they say that, you know, it is just wasting a 
lot of time and effort to try to get the pirates out in the 
ocean. He says, You have to deal with them on the ground, 
period. That is the way that you can eliminate it before they 
go. And they have a plan, which they feel they could handle it.
    As a matter of fact, you know, Sheikh Sharif and the 
Islamic Courts Union ended the piracy during the 6 months they 
were in charge. But the United States backed Ethiopia to go in 
and dislodge the ICU, and they left, and that is when the 
piracy became emboldened.
    So I think it can be dealt with if the new government is--
you know, they are interested in having some training of their 
militia. It may be in Kenya somewhere or Uganda. And they are 
very assured that they can eliminate it on the ground. And I 
think that would make a lot more sense.
    You know, the three groups in Somalia: You have the 
government, you have the pirates and you have Al-Shabaab. Now, 
Al-Shabaab is allegedly trying to get a foothold linked to al 
Qaeda. The hijackers are criminals that have cartels, and they 
are, you know--so those two groups have money. The only group 
that has no money is the government. And they are the ones that 
want to end piracy, and we can't get the West to engage with 
the government. They say, ``We can handle this. Believe me, we 
will have no problem. And, as a matter of fact, if we even got 
some intelligence from, you know, the West to even assist us in 
locating them or seeing when they are planning to leave land, 
we could wipe them right out.'' But the only ones that have no 
resources is the government.
    So we could spend a lot of money trying to go over all 
these oceans to try to run these guys down. And I am not so 
sure the insurance companies care very much anyway. They are 
not hurting. As a matter of fact, I think we ought to 
investigate the increased profits that the insurance companies 
are making with this new surcharge that they are charging. And, 
of course, the shipping companies just put a surcharge on each 
container.
    Mr. Delahunt. Would the gentleman yield?
    Mr. Payne. Yeah.
    Mr. Delahunt. I think that suggestion is one that we will 
pursue. And as I indicated before you arrived, Mr. Payne, what 
I anticipate is just a thoughtful but thorough review of all 
these issues, because it is somewhat complex. And I don't 
disagree with the plausible theory that maybe insurance 
carriers are a part of the problem and, therefore, a part of 
the solution here.
    Mr. Payne. Oh, yeah, no question about it. And, you know, 
contrary to what I think the gentleman from California--there 
has been no--you know, the relationship between the pirates and 
the crew, I mean, they are all sitting there waiting, when the 
insurance company--when are they going to pay the ransom so I 
can go back to land and the other guys can get on with their 
business, drop their crew and go on. And so the holdup is not 
with the--and, as you mentioned, there have been no reports of 
mistreatment on the parts of the crews of the ships from the 
hijackers.
    Mr. Rohrabacher. Would the gentleman yield for one moment?
    Mr. Payne. Yeah.
    Mr. Rohrabacher. Just to note--and I think it is a very 
important point that you are bringing up about insurance--has 
the insurance gone up dramatically on these ships, to insure 
these ships from this?
    Mr. Mull. My information suggests that the surcharge that 
Congressman Payne referred to has primarily been imposed by 
European insurers. American insurers have not yet taken that 
measure yet. But then that is also because American insurance 
policies typically don't cover ransom payments the way 
European----
    Mr. Rohrabacher. Of course, if insurance rates are going to 
go up, maybe there is your source of revenue for paying for 
private protection. There you go.
    Mr. Payne. Oh, absolutely. And also, you know, the flags of 
convenience. You don't really know who the ship really belongs 
to, to be honest, because they fly under the flags of 
convenience, of either Panama or Liberia or Guam. And so it is 
very difficult to know who is--you know, of course it was clear 
with the Maersk line. But I am sure that some of those other 
ships out there are owned by American businesses, it is just 
that they have international crews.
    Which also may be another thing that the insurance 
companies really don't care that much necessarily about. You 
know, some of the treatment of these seamen are not the best 
either, many of them from Third World countries with no rights. 
And they are not going to complain, you know; it is the best 
thing they got. At least they have a meal going. They get a 
little something when the ship goes somewhere and they can get 
home.
    So I don't see whether there is necessarily, you know, a 
tremendous amount of concern, really, for the crew. I mean, the 
crew is about the easiest thing those ships can get. You know, 
I mean, people are waiting in the Philippines or in other 
countries around the world to be seamen. And that is why the 
ILO and the flags of convenience have been a debate over in 
Geneva for decades, about even the safety of the ships and the 
conditions. Because when they fly under the flag of 
convenience, there is no jurisdiction from the countries that 
are doing the business.
    So, just concluding, we are running out of time, I think 
that the leadership of Puntland, Somaliland, Somalia really 
want to see this end, because it does absolutely nothing for 
the country, which are in terrible straits in the first place. 
I mean, Somalia has been abandoned for 15 years, and they are 
certainly not going to get anybody investing in Somalia with 
these gangsters doing what they are doing.
    And so, I think that if--and getting, you know, the 
Department of Defense and the Navy and all that in your 
discussions--like I said, I have been talking to these fellows 
up in Eritrea in August and Mogadishu, as you know, a couple of 
weeks ago. They really want this thing to end, because they 
really are trying to see if they can--you know, all the fish 
are gone after, allegedly, overfishing from Asian trollers that 
just depleted the fishing.
    It is alleged that there has been dumping of toxic, you 
know--if you got no government, you got no one to say, ``Stop 
dumping that.'' You got no Coast Guard, so there has allegedly 
been dumping of toxics and all kinds of things off the coast of 
Somalia. So it certainly doesn't condone criminal behavior. 
However, there needs to be some kind of a--if you got a failed 
state, you know, you have to deal with it. We are trying to 
deal with Afghanistan, which is a lot worse than Somalia, 
believe me, and Iraq.
    So I would hope that in the thinking we would kind of 
figure out if we do something on the ground, we might be able 
to save a lot of increased insurance rates and our ships riding 
all around. The ocean is pretty big, you know.
    Mr. Delahunt. Would the gentleman yield?
    Mr. Payne. Yeah, I will yield back.
    Mr. Delahunt. Thank you. And I think your point is well-
taken. I mean, I would agree, there has to be a comprehensive 
approach here. But I think what we need is to understand the 
various pieces, so that some time in the future we are able to 
have a more well-informed discussion with the agencies in the 
executive branch. I know that this is a learning curve, really, 
for all of us.
    But I think something that you said, Mr. Payne, really has 
to be underscored, is that those who dismiss an increasing 
reality, which is that there are failed states that exist, 
there is extreme danger. And despite the fact that Somalia is 
on a different continent thousands of miles away from the 
United States, we are impacted. And we have states that are 
failed or near failure right here in our own backyard. I am 
just thinking of Haiti, for example.
    And that is why it is important, I think, to create an 
architecture, a blueprint, if you will, or a plan that can be 
utilized in any situation where piracy emerges as a significant 
problem. And we ought to take the time, given the high profile 
that this issue has now developed, to really understand the 
problem, discuss it with all of the stakeholders, and proceed 
in a very thoughtful manner.
    And let me conclude with that. And thank you for your 
participation, Mr. Payne, and to thank our witnesses. I can 
assure you we are going to ask you to return. We are not going 
to impose a burden on you, but bear with us as you guide us to 
a more full and ample understanding of how we address this 
problem, which has severe consequences for our national 
security and for our economy.
    I also, before I take the gavel, I want to thank some 
interns that have really done us well. And if they could stand: 
Carla, Carla Rojas; and Leanne, Leanne Blanchette. They have 
worked here assiduously. This is their first hearing, and it is 
also their last day. But I want to thank them publicly for the 
good work that they have done.
    And, with that, we are adjourned. Thank you.
    [Whereupon, at 2:25 p.m., the subcommittee was adjourned.]
                                     

                                     

















                            A P P E N D I X

                              ----------                              


 Material Submitted for the Hearing Record hearing notice 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
